   INITIAL ASSESSMENT OF THE
CENTRAL ARTERY/TUNNEL PROJECT
 STEM TO STERN SAFETY REVIEW

     Federal Highway Administration

      Report Number: MH-2007-063
      Date Issued: August 16, 2007
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Initial Assessment of                                               Date:    August 16, 2007
           the Central Artery/Tunnel Project
           Stem to Stern Safety Review
           Report Number: MH-2007-063

  From:    Rebecca Anne Batts                                                       Reply to
                                                                                    Attn. of:   JA-40
           Acting Assistant Inspector General
             for Surface and Maritime Programs

    To:    James Ray
           Acting Deputy Administrator
             and Chief Counsel

           This report presents the results of our initial assessment of the Commonwealth of
           Massachusetts’s ongoing Stem to Stern Safety Review. The Commonwealth
           initiated the safety review last year as an independent and comprehensive look at
           the overall soundness of the Boston Metropolitan Highway System, including the
           Central Artery/Tunnel Project. This project-wide review was prompted by the
           July 10, 2006, collapse of ceiling panels in a Central Artery Project tunnel, which
           killed a motorist. The safety review is divided into several phases, with Phase I
           being a purposely limited and expeditious review to identify immediate risks to
           public safety. In November 2006, the Commonwealth published the findings of
           Phase I in a report released to the public and made recommendations for further
           analysis and remediation.1

           The Office of Inspector General (OIG) is overseeing the Stem to Stern Safety
           Review—and other Central Artery Project safety reviews and remediation work—
           as directed by the National Transportation Safety Board Reauthorization Act of
           2006. 2 In addition to the Stem to Stern Safety Review, we provided independent
           oversight to the reopenings of sections of the Central Artery Project that were
           closed to traffic following the July 2006 collapse. This involved overseeing an
           8-stage series of safety reviews and remediation work to correct deficiencies. All
           sections of the Central Artery Project have since been reopened. Our broad

           1
               Issued November 15, 2006, http://www.eot.state.ma.us/stemtostern/.
           2
               Public Law No. 109-443, § 11 (2006).
                                                                                                                    2


objective is to provide assurance to the Congress, the Secretary of Transportation,
and the traveling public that Central Artery Project safety reviews and remediation
work are comprehensive and being performed in a rigorous and complete manner.

For this report, we evaluated whether the findings and recommendations in the
Stem to Stern Safety Review’s Phase I report adequately analyzed immediate risks
and whether necessary remedial measures were identified. We monitored the
Commonwealth’s activities after issuing the Phase I report, including activities
initiated to address our observations on the classification of certain safety risks and
on the Commonwealth’s follow-up activities (referred to as Phase IA). Further,
we also assessed the methodology and work plans for the remaining phases of the
safety review to determine whether they are clear and comprehensive.

We contracted with the U.S. Army Corps of Engineers (Corps) in August 2006 to
obtain its assistance and expertise in large infrastructure projects. Corps engineers
worked directly with the Commonwealth’s engineers performing the safety
review, monitored safety review activities, and provided updated information to
our engineers on a regular basis. We conducted this performance audit in
accordance with Generally Accepted Government Auditing Standards as
prescribed by the Comptroller General of the United States. Exhibit A presents
our scope and methodology.

BACKGROUND
Construction of the Central Artery Project began in late 1991 and was originally
scheduled to be substantially completed by December 1998. Work on the project
continues to this day. In response to rising project costs, which had increased to
$14.625 billion by 2006, Congress in October 2000 limited Federal contributions
to $8.549 billion. 3 Congress also directed the Secretary of Transportation to
withhold obligations of Federal funds and all project approvals until OIG
determines that the annual finance plan update is consistent with Federal Highway
Administration (FHWA) guidance. 4 Exhibit B is a map of the Central Artery
Project.

Following the collapse of tunnel ceiling panels in July 2006, the overall safety of
the entire Central Artery Project was called into question. In response, the Stem to
Stern Safety Review was initiated by the former Governor of Massachusetts to
provide an independent assessment of both near- and long-term safety. The
review was authorized by the Massachusetts legislature, which appropriated
$20 million specifically for a comprehensive audit of the safety of the
3
    Department of Transportation Appropriations Act of 2001, Public Law No. 106–346, § 340(b) (2000).
4
    On June 27, 2007, we initiated an audit of the Massachusetts Turnpike Authority’s 2007 Finance Plan Update for the
    Central Artery/Tunnel Project.
                                                                                   3


Metropolitan Highway System. The Governor issued an executive order to initiate
the safety review in the summer of 2006. The previous Governor's term ended in
January 2007 and a transition to a new administration ensued. The current
Governor decided to continue the safety review.

In August 2006, the then-Governor of Massachusetts appointed his Secretary of
Environmental Affairs as safety review director to provide overall leadership to
the Stem to Stern Safety Review. Wiss, Janney, Elstner Associates, Inc. (WJE), a
forensic engineering firm with significant experience in high-profile accident
investigations, was retained to actually conduct the review. The scope of the
review was divided into 10 separate areas, 9 of which covered major components
of the Central Artery Project. The tenth area covered the ceiling systems of the
Central Artery North Area (CANA) Tunnel, the Sumner Tunnel, and the Callahan
Tunnel, which are distinct from the Central Artery Project. During Phase I, the
Commonwealth evaluated all major components of the Central Artery Project and
other components of the Metropolitan Highway System to identify immediate
risks to public safety. A more comprehensive review of all safety risks is expected
to be completed in Phase II. Of the $20 million appropriated by the Massachusetts
legislature to conduct the safety review, $5.7 million has been budgeted for safety
review activities leading up to Phase II.

In addition to the Commonwealth’s safety review team, a five-member
independent Advisory Panel was created by the then-Governor to help ensure the
comprehensiveness, objectivity, and effectiveness of the review. The panel
includes the chief engineer of the Port Authority of New York and New Jersey and
the executive director of the Transportation Research Board of the National
Academies of Sciences and Engineering. The chair formerly served in the
U.S. Department of Transportation as an Assistant Secretary.

RESULTS IN BRIEF
The Phase I report of the Stem to Stern Safety Review identified numerous high
priority safety risks across the major components of the Central Artery Project.
Overall, we found that the Phase I process was conducted in a professional manner
and was generally comprehensive for the short time period in which it was
conducted. However, due to the limited 90-day duration of Phase I, certain key
safety studies were purposely deferred to the later Phase II, which is intended to be
a longer-term effort. For example, we noted, as did the Commonwealth’s
Advisory Panel, that the 90-day duration of Phase I limited the depth of the review
of the Central Artery Project’s complex life-safety systems, such as fire detection,
ventilation, communications, and traffic monitoring. The Phase I review did not
include detailed field inspections on foundations and underwater structures, such
as bridge piers. The work of the Stem to Stern Safety Review will not be
                                                                                                                             4


complete until more thorough studies of these systems and structures are
conducted during the safety review’s other phases.

During the Phase I review, WJE identified and recorded safety risks as reportable
conditions. According to the Phase I report, examples of reportable conditions
include members exhibiting distress or deterioration, apparent safety-related
construction deficiencies, and other safety-related conditions that required detailed
investigation. Reportable conditions were included in the Phase I report and rated
on a scale prioritizing when the Commonwealth should conduct follow-up
activities. The most serious conditions were classified as “immediate or
dangerous conditions” that warrant immediate follow-up activities to fully assess
the safety risks and conduct remediation as necessary. 5

Specifically, based on our assessment of the Phase I report and plans for future
safety review activities, we concluded the following.

• Phase I of the Stem to Stern Safety Review generally analyzed the correct
  project components, but certain items should have been classified as
  higher priority safety risks in the Phase I report, or necessary follow-up
  activities were not sufficiently clear. Thus, timely and thorough follow-up
  activities are necessary to complete the full assessment of immediate safety
  risks and conduct remedial work. For example, we noted that the risk
  assessment of warped anchor plates on the Central Artery Project’s Zakim
  Bridge, which connect the bridge’s cables to its steel girders, was incomplete
  in the Commonwealth’s Phase I report. The safety review team gave this
  reportable condition a priority rating that classified it as needing further
  analysis during Phase II. In contrast, based on the analysis conducted by the
  Corps, we concluded that the warped anchor plates posed a higher safety risk.
  The OIG recommended that the safety review team address this safety risk
  immediately without waiting for Phase II; this correlated to a rating of an
  “immediate or dangerous condition” using the Commonwealth’s scale. The
  Zakim Bridge’s most recent bridge inspection performed in 2005 did not report
  the warped anchor plates, which underscored the need to fully assess this
  safety risk in a timely manner. In addition to the Zakim Bridge deformations,
  we concluded that expeditious follow-up analysis is required in several other
  key areas, such as the possible effects of large fires in the tunnels.

      In response to our observations about some of the findings and
      recommendations in the Phase I report, the Commonwealth agreed in
      December 2006 to create “Phase IA”—a new short-term phase of the safety
      review to occur between Phases I and II. Phase IA is intended to expeditiously

5
    See Exhibit C for an explanation of the system used by the safety review team to classify and prioritize safety risks.
                                                                                  5


    conduct follow-up work to fully assess the conditions that we highlighted in
    our review of the Commonwealth’s Phase I report. On August 14, 2007, the
    Commonwealth released reports addressing many of the issues included in
    Phase IA. We have initiated our review of these reports. Among the key areas
    that the Commonwealth agreed to expeditiously address in Phase IA are:
    o performing additional analysis on the adhesive anchors supporting the
      ceiling in the Ted Williams Tunnel. In the Phase I report, the safety review
      team expressed concern about the long-term reliability of the adhesive
      anchors used to secure the ceiling panels to the tunnel roof in the Ted
      Williams Tunnel. The July 2006 collapse of ceiling panels in the Central
      Artery Project is attributed to the failure of the adhesive anchors in a
      section of the Interstate 90 connector tunnels. The adhesive anchors in the
      Ted Williams Tunnel are distinct from the anchors that failed because they
      are produced by a different manufacturer, have different design
      specifications, were installed by a different contractor, and are supporting a
      ceiling system that is much lighter than the ceiling systems used in the
      other tunnels. Nevertheless, there have been occurrences in the Ted
      Williams Tunnel of adhesive anchor bolts being embedded into concrete at
      a less than optimal depth and of anchor bolts partially slipping out of the
      concrete. We concluded that additional analysis of the adhesive anchors in
      the Ted Williams Tunnel should not be put off to Phase II. The
      Commonwealth agreed to raise the priority of follow-up analysis and
      initiate efforts in Phase IA.
    o performing additional fire modeling in the tunnels. In Phase I, the safety
      review conducted fire modeling on the effects of a single bus or truck fire
      in the Central Artery Project’s tunnels, which meets the current design
      standard for tunnels established in 2004. However, our fire experts
      recommended modeling for a two-truck fire as an extra precaution, which
      could create as much as three times the amount of heat that a single bus or
      truck fire produces. Specifically, we expressed concern that a high-
      temperature fire could seriously damage adhesive anchors supporting
      ceiling panels in the Ted Williams Tunnel. The safety review team agreed
      to reevaluate its fire modeling and discuss modeling the effects of a more
      intense fire in Phase IA.

•   The leadership, scope, and methodology for Phase II of the Stem to Stern
    Safety Review need to be specified and aggressive action must be taken
    going forward. The Stem to Stern Safety Review is not complete and the
    Commonwealth must still produce a detailed scope and methodology for Phase
    II activities.  On June 25, 2007, the Commonwealth’s Secretary of
    Transportation announced the appointment of a new Deputy Secretary for
    Public Works who would also fill the Stem to Stern director position, which
                                                                                                                       6


      had been vacant since January 2007. However, unlike the previous director,
      the new Deputy Secretary will not be exclusively dedicated to driving the Stem
      to Stern Safety Review’s completion, nor will he report directly to the
      Governor. The Commonwealth should reconsider where to place the
      leadership of the safety review. A dedicated director position will help ensure
      that attention and resources are not diverted from this critical safety review and
      the remediation of identified safety risks. Completion of the Stem to Stern
      Safety Review in a timely, thorough, and independent manner is necessary
      because many key safety-related analyses were deferred.

      When the Stem to Stern Safety Review was initiated last year, officials of
      FHWA informed us that their role would be advisory during the initial phase
      because the Commonwealth initiated the effort with no Federal funding. At
      that time, they also informed us that they intended to exercise greater oversight
      over the remediation of identified safety risks. Now that safety risks have been
      identified and remediation has begun, FHWA will need to exercise greater
      oversight to ensure that the Commonwealth completes the remaining phases of
      the safety review and remedial work in a timely, thorough, and independent
      manner.

      FHWA has already recognized the need to provide more oversight. For
      example, in March 2007, FHWA formally issued a letter to the Commonwealth
      expressing concern about the lack of substantive progress on the Stem to Stern
      Safety Review since the former Governor’s term ended in January 2007. This
      was a positive first step from FHWA, although it needs to increase its oversight
      going forward because safety risks have been identified and considering the
      massive Federal investment in the project to date. Moreover, FHWA should
      ensure that the Commonwealth expeditiously determines the responsible
      parties and pursues cost recovery from consultants or contractors for those
      conditions identified during the safety review that appear to be caused by
      design errors or inadequate construction practices. 6

      Accordingly, we are recommending that FHWA (1) designate a lead official to
      monitor the Commonwealth’s progress on the Stem to Stern Safety Review
      and (2) report regularly to the Department of Transportation Oversight
      Committee on the Central Artery Project regarding progress being made by the
      Commonwealth to complete the safety review. 7 FHWA should provide a copy
6
    The Massachusetts Attorney General’s office has the lead on pursuing cost recovery efforts for the Central Artery
    Project.
7
    Acting Secretary of Transportation Maria Cino established the Department of Transportation Oversight Committee
    on the Central Artery Project to provide independent assurance that FHWA’s response to the July 10, 2006, ceiling
    collapse is sufficiently robust and comprehensive in assessing the cause of the failure and in overseeing the remedial
    steps taken by the Commonwealth to address safety concerns, such as the Stem to Stern Safety Review. The
    Committee is comprised of high-level DOT officials from outside FHWA.
                                                                                  7


   of each report to OIG. A list of our complete recommendations is provided
   beginning on page 16.

FINDINGS

Timely and Thorough Follow-Up of Stem to Stern Phase I Activities Is
Necessary To Complete the Full Assessment of Immediate Safety
Risks and Conduct Remedial Work
The Commonwealth’s Stem to Stern Safety Review Phase I report, issued in
November 2006, generally analyzed the correct items across the major
components of the Central Artery Project, such as the tunnels and the Zakim
Bridge. Our oversight team examined the Phase I report and made
recommendations in cases where items were not given high enough priority as
safety risks, or in instances when follow-up activities were not sufficiently clear.
In response to our observations, the Commonwealth agreed in December 2006 to
create “Phase IA”—a new phase of the safety review to occur between Phases I
and II—to expeditiously conduct rigorous follow-up analyses to fully assess the
conditions that we highlighted in our review of the Phase I report. Progress on
completing Phase IA’s assessment of immediate risks and remediating these
problems has been slower than expected.              On August 14, 2007, the
Commonwealth released reports addressing many of the issues included in Phase
IA. We have initiated our review of these reports.

Certain Conditions Were Not Classified as High Enough Safety Risks in
the Commonwealth’s Phase I Report, or Necessary Follow-Up Activities
Were Not Sufficiently Clear
The Commonwealth’s Phase I report identified 34 items in “immediate or
dangerous condition” that require immediate assessment and remediation.
Examples range from light pole and signage structures at risk of falling to water
leaks in main electrical rooms. The report also designated numerous other safety
risks that require further investigation during the Stem to Stern Safety Review’s
future Phase II. Overall, we found that the Phase I process was conducted in a
professional manner and was generally comprehensive for the short time period in
which it was conducted. Based on our oversight of Phase I activities as they were
occurring and review of the Phase I report, we recommended that the
Commonwealth’s safety review team raise the priority of certain safety risks and
quickly clarify follow-up activities in a number of key areas, including: (1)
conducting a follow-up investigation of the Zakim Bridge’s warped steel anchor
plates, (2) investigating missing records that document the strength and quality of
the Zakim Bridge’s structural steel, (3) performing additional analysis of the
adhesive anchors supporting ceiling panels in the Ted Williams Tunnel,
                                                                                                                         8


(4) conducting a more rigorous analysis of the impact of potential earthquake
conditions on the tunnels’ suspended ceiling systems, and (5) performing
additional fire modeling to fully assess the effects of high-temperature fires in the
tunnels.

The Commonwealth agreed with our recommendations to expeditiously conduct
additional analyses in these areas as part of a new short-term Phase IA, which was
created in December 2006. The intention was to immediately begin Phase IA;
however, progress was slower than expected between January and May 2007. In
May 2007, the Commonwealth agreed to kick-start Phase IA activities and
complete them as soon as possible. Timely and thorough completion of Phase IA
is necessary to fully understand the extent of the general safety risks already
identified in Phase I and set the stage for the longer-term Phase II.

Conduct a follow-up investigation of the Zakim Bridge’s warped steel anchor
plates. The safety review team found a total of six warped steel anchor plates on
the Central Artery Project’s Zakim Bridge—a condition not disclosed during its
most recent bridge inspection performed in 2005. Such warping should have been
identified in the project’s quality assurance process if it had occurred during
construction, but we found no evidence that it was identified. Anchor plates,
which connect the bridge’s cables to its steel girders, should not exhibit visible
warping under normal stress conditions. 8 Warping of this kind may suggest that
the anchor plates are overstressed and warrant special attention to assess any
possible safety risks they may present. According to the Corps, in a worse-case
scenario, overstressed anchor plates could lead to progressive bridge failure. 9

The safety review team gave this reportable condition a priority rating that
classified it as needing further analysis during Phase II. In contrast, based on the
analysis conducted by the Corps, we concluded that the warped anchor plates
posed a higher safety risk that needed immediate follow-up. The OIG
recommended that the safety review team address this safety risk immediately
without waiting for Phase II; this correlates to a higher rating of an “immediate or
dangerous condition” using the Commonwealth’s scale. The safety review team
concurred with us and included an expeditious follow-up analysis in Phase IA
instead of deferring it to a future Phase II.

Investigate missing records that document whether the strength and quality of
the Zakim Bridge’s structural steel meet project specifications. During Phase I,
the safety review team was unable to locate records of mill certifications for the

8
    See Exhibit D for pictures of the Zakim Bridge’s steel anchor plates.
9
    According to the Corps, a progressive failure can occur when a critical tension member (like an anchor plate) fails
    and all of its tension is abruptly transferred to adjacent members causing their overstress and failure in a progressive
    “unzipping” mode.
                                                                                                                       9


Zakim Bridge’s structural steel despite significant efforts to find them. Reviewing
the certifications is necessary to document that the Zakim Bridge was not
constructed using structural steel of lesser strength or quality than required by the
original design plans, which in a worse-case scenario could ultimately lead to
bridge collapse. The missing certifications will also assist with the analysis of the
bridge’s previously mentioned six warped steel anchor plates, which could be
deformed because they were made using lower quality steel. On July 13, 2007,
the Commonwealth informed us that the mill certifications had been found,
although at the time of this report we had not received them.

The Phase I report recommended deferring the search for mill certifications to
Phase II. However, considering past instances of poor quality construction, such
as defects in concrete wall panels that led to water leaks and the use of inferior
concrete mix found as part of on OIG investigation, 10 we recommended that this
activity receive higher priority. Leaks in the tunnel wall panels became a public
concern in September 2004 when one panel was breached, spilling 300 gallons of
water a minute onto the I-93 tunnel roadway. In this case, the examination of
construction records was crucial to discovering numerous errors and irregularities
in the oversight of the contractors that built the I-93 tunnel walls and in the walls’
construction. Separately, six current and former employees holding managerial
positions in Aggregate Industries’ concrete division were charged in May 2006
with highway project fraud and related offenses for their participation in a scheme
to provide concrete to the Central Artery Project that did not meet contract
specifications.

The safety review team agreed with our recommendation and decided to further
investigate the mill certifications in Phase IA. Thoroughly analyzing these mill
certifications is critical to determining the structural integrity of the Zakim Bridge.
Meanwhile, to fully address these concerns, the safety review team agreed to
conduct tests of the bridge’s steel if the mill certifications are not found.

Perform additional analysis of the safety of adhesive anchors supporting ceiling
panels in the Ted Williams Tunnel. The July 2006 collapse of ceiling panels in
the Central Artery Project tunnel was attributed to the failure of the adhesive
anchors in a section of the Interstate 90 connector tunnels. Consequently, all
adhesive anchors used to support ceiling panels in the I-90 tunnels have since been
removed, excluding those in the Ted Williams Tunnel. The adhesive anchors in
the Ted Williams Tunnel are distinct from the anchors that failed because they are

10
     On July 27, 2007, Aggregate Industries agreed to plead guilty and pay $50 million to resolve its criminal and civil
     liabilities in connection with a fraudulent scheme to deliver adulterated concrete to the Central Artery Project. The
     plea was a result of a multiparty investigation that included OIG, the Massachusetts Attorney General’s Office, the
     Federal Bureau of Investigation, the Massachusetts State Police, and the U.S. Attorney’s Office, District of
     Massachusetts.
                                                                                  10


produced by a different manufacturer, have different design specifications, were
installed by a different contractor, and are supporting a ceiling system that is much
lighter than the ceiling systems used in the other tunnels. Nevertheless, the safety
review team was still concerned about the long-term reliability of the adhesive
anchors used in the Ted Williams Tunnel, which secure ceiling panels into the
concrete of the tunnel roof. The safety review team came to this conclusion
through its analysis of limited data on the long-term performance of adhesive
anchors, which includes occurrences of adhesive anchor bolts being embedded
into concrete at a less than optimal depth and of anchor bolts partially slipping out
of the concrete.

The Phase I report noted that more detailed analysis is needed in Phase II to
evaluate possible long-term safety risks posed by these adhesive anchors.
However, we concluded that these efforts should not be put off to the longer-term
Phase II. The safety review team agreed with our recommendation to raise the
priority of these activities and initiate them in Phase IA. These efforts will
continue into Phase II when the safety review team will study the long-term safety
of continuing to use adhesive anchors in the Ted Williams Tunnel, determine the
probability of a ceiling failure, and identify appropriate design requirements for
mitigating the likelihood of any ceiling failure.

Conduct a more rigorous analysis of the impact of potential earthquake
conditions on the tunnels’ ceiling systems. Design codes require that a seismic
analysis be performed of structures like a highway tunnel. A seismic analysis
involves evaluating the integrity of the structure under potential earthquake
conditions. Considering the July 2006 collapse of ceiling panels in one of the
Central Artery Project tunnels, we believe the safety review team should ensure
the evaluation of the design is complete and includes the appropriate seismic
analyses. Specifically, we recommended that the safety review team reexamine
how it treated ceiling systems in its seismic analyses and consider using more
stringent seismic design requirements for the ceiling systems. For example, the
current formulation of the seismic analyses does not treat the tunnels’ ceiling
systems as integrated components of the structure, as the roof, floor slabs, and
walls are treated. Such components are subject to more stringent seismic design
requirements. Since Boston is located in a designated earthquake zone, it is
essential to provide clarification on the ability of the tunnels’ ceiling systems to
withstand an earthquake. In response to our concerns, the Commonwealth’s safety
review team agreed to reevaluate the current formulation of the seismic analyses.

Perform additional fire modeling to fully assess the effects of high-temperature
fires on the Central Artery Project’s tunnels. The safety review team conducted
fire modeling on the effects of a single bus or truck fire in the Central Artery
Project’s tunnels. This modeling meets the current design standard for tunnels
                                                                                                                     11


established in 2004. In addition, according to the Commonwealth, the tunnels
were built to design standards that were applicable at the time of construction.
However, our fire experts, who include a prominent scientist from the National
Institute of Standards and Technology, recommended, based on the current body
of knowledge and the possibility of such an event, that the safety review team
perform additional fire modeling for a two-truck accident. Such an event is
plausible and could create as much as three times the amount of heat that a single
bus or truck fire produces. 11

Additionally, our experts expressed concern over the impact of high temperatures
in the plenum area. The plenum is the space between the roof of the tunnel and
the suspended ceiling panels, which is used for ventilation purposes. We believe
that high temperatures could have a serious impact on adhesive anchors, which
secure ceiling panels to the tunnel roof in the plenum area of the Ted Williams
Tunnel. A high-temperature fire could cause the anchors to fail. In the Phase I
report, the safety review team recognized the need for further review by noting
that “more detailed analysis and testing will be needed in Phase II to establish the
performance of the ceiling system epoxy anchors during a large fire.” In response
to our observations, the safety review team agreed to reevaluate its fire modeling
and discuss modeling a more intense fire to examine the fire’s effects on the
ceiling plenum and the adhesive anchors.

The Leadership, Scope, and Methodology for Phase II of the Stem to
Stern Safety Review Need to be Specified and Aggressive Action
Must Be Taken Going Forward
The leadership, scope, and methodology for Phase II of the Stem to Stern Safety
Review need to be specified as soon as possible. The former safety review
director resigned in January 2007 and the Commonwealth did not designate a
replacement until June 2007. Additionally, the Commonwealth has yet to
announce its specific plans for the direction of certain Phase II activities, including
the role of the Advisory Panel, and what the detailed scope and methodology for
Phase II will be. Phase I was purposely limited and intended to set the stage for a
more rigorous and comprehensive Phase II. Sustained progress is necessary
because many key safety-related analyses have not been completed. Completion
of the entire safety review in a timely, thorough, and independent manner is
critical to ensure that key safety-related analyses are accomplished.


11
     Tunnel fires with heat release rates higher than the rate of a single truck fire have occurred throughout the world.
     The results of the 2003 Runehamar fire tests published by the Fire Safety Journal in January 2006 indicate that the
     heat and temperature released in tunnel fires were considerably higher than the values reflected in the current
     design standard for truck fires used for the Central Artery Project. Further, a FHWA sponsored study issued in
     June 2006 on European underground transportation systems also highlights the occurrence of tunnel fires with heat
     release rates much higher than what is reflected in the current design standard.
                                                                                    12


Going forward, FHWA will need to exercise greater oversight to ensure that the
Commonwealth completes the safety review in this manner, considering the
massive Federal investment in the project to date and the identified, significant
risks. Moreover, the discovery of items in “immediate or dangerous condition,” as
identified in the Phase I report, calls into question the quality of the Central Artery
Project’s design and construction. FHWA should ensure that the Commonwealth
expeditiously determines the responsible parties and pursues cost recovery from
consultants or contractors for those conditions identified during the safety review
that appear to be caused by design errors or inadequate construction practices.

The Stem to Stern Safety Review Has Lacked a Designated Leader in
Recent Months
In a January 2007 transition report to the incoming Governor, the former safety
review director identified the naming of a new director and the appointment of
members to the Advisory Panel as immediate priorities, but these key decisions
were not finalized for nearly 6 months. In announcing the newly appointed
director on June 25, 2007, the Commonwealth’s Secretary of Transportation stated
that the position would be organizationally located in the Executive Office of
Transportation, hold the title of “Deputy Secretary of Public Works,” and have an
array of other duties in addition to the Stem to Stern Safety Review, such as
coordinating the inspection and construction of major highway and rail projects as
well as pursuing cost saving opportunities at the Massachusetts Highway
Department and the Massachusetts Turnpike Authority.

The previous safety review director was exclusively dedicated to driving the safety
review’s completion and reported directly to the Governor. Having the safety
review director wear many hats creates the risk of diverting the director’s attention
away from this critical safety review and possibly delays the review and the
remediation of identified safety risks. The Commonwealth should reconsider
where to place the leadership of the safety review. A dedicated director position
will help ensure that attention and resources are not diverted from this critical
safety review and the remediation of identified safety risks. Further, the role of
the Advisory Panel, members of which serve at the pleasure of the Governor,
remains unclear because the panel’s chair stepped down at the conclusion of Phase
I. The Stem to Stern Advisory Panel can supply independent expertise and help
provide assurance to the public that the review is being conducted in a rigorous
manner.

The Commonwealth Needs to Produce a Detailed Scope and Methodology
for Phase II
Phase II of the Stem to Stern Safety Review requires a clear and detailed scope
and methodology to complete the full assessment of safety risks identified in
                                                                                 13


Phase I. The safety review’s preliminary implementation plan for Phase II
identifies and prioritizes follow-up activities to address Phase I recommendations,
but lacks key components, including a realistic schedule with a critical path for
sequencing activities, and reasonable cost estimates. On July 13, 2007, the
Commonwealth informed us that it had finalized a scope of work with WJE for the
Phase II work. Our review showed that the finalized scope of work does not
include a detailed plan with specific activities that will be conducted during Phase
II and time frames for their completion. This information will be needed. The
methodology used in Phase II should also include activities to independently
verify the remediation of safety risks. Additionally, the Phase II plan will need to
be updated to reflect any new findings that are identified in the coming months
during Phase IA. Finally, the Commonwealth’s safety review team should also
continue to routinely communicate to FHWA and OIG the latest developments on
Phase II planning and the status of Phase IA activities.

In particular, we believe that our recommendations regarding fire protection and
life safety should be carefully considered in designing a comprehensive scope for
Phase II activities. These analyses were not conducted during Phase I of the safety
review. Because detailed Phase II plans are not yet complete, it is unclear whether
these recommendations will be included. Accordingly, we recommended that the
safety review team conduct follow-up activities during Phase II to:
• Perform an analysis of the ventilation system’s capability to maintain safe air
  quality in the tunnel during rush hour or traffic backups. The performance of
  the ventilation system during such non-fire situations, including its response to
  higher levels of carbon monoxide, was not evaluated.
• Assess the fire resistance of various utility cables that run along the tunnel
  ceiling and evaluate the impact of cable failure. These cables need to perform
  during emergencies, such as fires, to allow centralized electronic systems to be
  fully operational and function as designed during fire emergencies.
• Initiate an investigation to determine an acceptable time period for the back-up
  Operational Control Center (OCC) to take over if the primary OCC were to fail
  and put plans into place to help ensure the preparedness of the back-up OCC.
  We believe an acceptable time period for the back-up OCC to take over should
  be established and that the back-up OCC should be tested periodically to make
  sure it is in working order.

Furthermore, for the Stem to Stern Safety Review to be more comprehensive, it
should take into consideration all previously identified problems and those that
may be identified in other ongoing investigations. For example, the
Commonwealth should incorporate the results of the National Transportation
Safety Board’s (NTSB) forensic investigation into its comprehensive plan for
                                                                                                                     14


Phase II. 12 Further, the Commonwealth should take into account the results of
FHWA’s independent review. The Commonwealth should not wait for the final
NTSB report or the results of FHWA’s review, but update its Phase II plan as
necessary.

Enhanced FHWA Oversight Is Needed Going Forward
When the safety review was initiated last year, FHWA officials informed us that
their role would be advisory in nature because the Commonwealth initiated the
effort with no Federal funding. They also stated that they intended to exercise
greater oversight over the remediation of identified safety risks. Now that safety
risks have been identified and remediation has begun, FHWA will need to exercise
greater oversight to ensure that the Commonwealth completes the remaining
phases of the safety review and remedial work in a timely, thorough, and
independent manner.

As the Operating Administration in charge of overseeing the Federal
Government’s investment in the Central Artery Project, FHWA recently
recognized the need to become more involved in the Stem to Stern Safety Review.
For example, in March 2007, the Acting Deputy Federal Highway Administrator
issued a letter to the Massachusetts Secretary of Transportation noting FHWA’s
concern about the lack of substantive progress on the Stem to Stern Safety Review
since the former Governor’s term ended in January 2007. This was a positive first
step. Going forward, FHWA will need to increase its oversight considering the
massive Federal investment in the project to date and the significant risks that
have already been identified.

Moreover, the discovery of 34 items in “immediate or dangerous condition,” as
identified in the Phase I report, calls into question the quality of the Central Artery
Project’s design and construction. Timely and thorough execution of the
remaining phases of the Stem to Stern Safety Review will help determine whether
these problems emerged from errors, omissions, or other deficient or
unsatisfactory performance in designing or constructing the project and what
remediation actions will be necessary. The Commonwealth should pursue cost
recovery for conditions resulting from design or construction deficiencies. For
example, we identified the following key areas that warrant investigation into
whether problems resulted from design or construction deficiencies.
• The Zakim Bridge, at a cost of over $110 million, is a “signature” structure that
  represents the state of the art in bridge design and construction. However, after
  only about 4 years in service, the safety review team found that there were

12
     NTSB investigated the circumstances of the July 2006 collapse of ceiling panels in the Central Artery Project. Its
     investigation has focused on those issues surrounding the failure of the adhesive anchors. On July 10, 2007, NTSB
     released an executive summary of the results of its investigation, with a final report expected in the coming weeks.
                                                                                                                     15


       deformations in the steel anchor plates for cables, discrepancies between
       as-built conditions and the designs, and the lack of material certifications for
       the bridge’s structural steel. These problems warrant immediate attention.
       Accordingly, the Stem to Stern Safety Review will address them in Phase IA,
       which will help determine the root causes of the problems and the extent to
       which cost recovery is possible.
•      The Central Artery Project OCC houses the centralized electronic systems that
       monitor traffic flow, tunnel ventilation, and fire detection and control
       communications. The Commonwealth has reported that the center contains
       “the most advanced electronic traffic monitoring and incident response system
       in the world.” 13 However, all the systems were not delivered as originally
       planned upon substantial completion of the project, which was declared in
       January 2006. Rather, final activation and testing of the fully integrated
       systems has been delayed until 2008.

       The Phase I results revealed that the installed OCC and centralized systems’
       noncompliance with design specifications is attributable to delays as well as to
       deficiencies. During Phase I, the safety review team found “the fire detection
       system is not in full compliance with the modified basis of design” and
       identified inconsistencies regarding the fire detection time. Separately, we
       found the systems related to traffic incident detection, highway advisory radio,
       and variable message signs to be incomplete or not in service. The safety
       review team made recommendations in its Phase I report, supplemented by
       recommendations from our review, to identify the causes of these deficiencies
       and restore full compliance with project design specifications. Because of the
       substantial Federal investment made in the OCC and centralized systems, we
       believe that the Phase I recommendations should be implemented immediately
       to identify the root causes for these deficiencies.

Evidence of design or construction deficiencies identified in the course of the
safety review could lay the foundation for cost recovery by the Commonwealth.
FHWA should ensure that the Commonwealth pursues cost recovery expeditiously
because determining who is responsible to pay for remedial work is complex and
requires additional analysis. Problems could be caused by poor construction,
design errors, poor oversight, or a combination of those factors. The resulting
“finger-pointing” that usually follows such investigations increases the complexity
of determining the responsible parties.

FHWA’s efforts to ensure an expeditious cost recovery effort are necessary
because, historically, the Commonwealth’s cost recovery efforts have been
time-consuming. We have previously reported that as of March 2003, 8 years of
13
     “Cost/Schedule Status of the Central Artery/Tunnel Project,” Massachusetts Turnpike Authority, April 1, 2005.
                                                                               16


cost recovery efforts led to only $30,000 in recoveries from a single consultant,
even though 76 cost recovery items, involving $53.7 million in change orders, had
been resolved. Over the next 2 years, a new cost recovery team directed by a
retired Probate Court judge was more successful, but recovered only $3.5 million.
Since February 2005, when the Massachusetts Turnpike Authority transferred cost
recovery efforts to the Massachusetts Attorney General’s Office, the
Commonwealth has not reached any significant settlements.

Accordingly, we are recommending that FHWA (1) designate a lead official to
monitor the Commonwealth’s progress on the Stem to Stern Safety Review and
(2) report regularly to the Department of Transportation Oversight Committee on
the Central Artery Project regarding progress being made by the Commonwealth
to complete the safety review. FHWA should provide a copy of each report to
OIG.

RECOMMENDATIONS
To ensure prompt action on the Central Artery safety reviews and protect the large
Federal investment in the project, we recommend that FHWA:

1. Designate a lead official to ensure that the Commonwealth:

   a. Completes the analyses of all safety risks—especially those posing
      immediate safety risks—in a timely, independent, and thorough manner,
      since many key safety studies were limited or deferred, and carries out
      prompt remediation for any deficiencies identified.

   b. Produces a clear and comprehensive methodology for Phase II, including a
      realistic schedule with a critical path for sequencing activities and
      reasonable cost estimates. The methodology should reflect the analyses
      and remedial work to be performed on outstanding findings and
      recommendations of the Commonwealth’s Phase I report.               The
      methodology should also include plans to independently verify that
      remedial work is completed.

   c. Expeditiously pursues cost recovery to the extent possible for those
      conditions that result from design errors or inadequate construction
      practices.

   d. Continues to routinely communicate latest developments to key
      stakeholders, including FHWA and OIG.

2. Report regularly to the Department of Transportation Oversight Committee on
   the Central Artery Project regarding progress being made by the
                                                                              17


      Commonwealth to complete the safety reviews and on any concerns the
      FHWA may have. FHWA should provide a copy of each report to OIG.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FHWA with a draft of this report on July 18, 2007. On August 3,
2007, FHWA provided us with formal comments on our draft report (see
Appendix). FHWA stated that on the whole “the findings in the report are valid.”

Recommendation 1. FHWA concurred with the recommendation. FHWA
designated the Acting Deputy Administrator and Chief Counsel as the lead official
to ensure that the Commonwealth progresses in the noted areas.

OIG Response. FHWA’s planned actions meet the intent of our recommendation.

Recommendation 2. FHWA concurred with the recommendation to report to the
Department of Transportation Oversight Committee on the Central Artery Project
on progress being made by the Commonwealth to complete the safety reviews.
FHWA agreed to provide a copy of each report to the OIG.

OIG Response. FHWA’s planned actions meet the intent of our recommendation.
Based on FHWA’s comments, we revised the second recommendation to clarify
that FHWA will provide to OIG a copy of each report submitted to the Department
of Transportation Oversight Committee on the Central Artery Project.

ACTION REQUIRED
FHWA’s actions taken and planned satisfy the intent of our recommendations,
subject to follow-up provisions in DOT Order 8000.1C. We appreciate the
cooperation and assistance provided by you and your staff during our review. If
you have any questions concerning this report, please call me at (202) 366-5630.

                                       #

cc:     Secretary of Transportation
        Deputy Secretary of Transportation
        Members of the Department of Transportation Oversight Committee on the
         Central Artery Project
                                                                                18




EXHIBIT A. SCOPE AND METHODOLOGY
To accomplish our broad objective of ensuring that Phase I of the Central Artery
Project’s Stem to Stern Safety Review was comprehensive and conducted in a
complete and rigorous manner, we assessed whether the findings and
recommendations of the Phase I report adequately identified and analyzed
immediate risks and whether necessary remedial measures were identified. We
monitored the Commonwealth’s activities after issuing the Phase I report,
including activities initiated to address our observations on the classification of
certain safety risks and on the Commonwealth’s follow-up activities (referred to as
Phase IA). We also evaluated whether work plans for remaining phases of the
safety review were clear and comprehensive.

As a part of this audit, we reviewed the work plan for Phase I to determine
whether it included a comprehensive review of safety priorities in the project’s
physical infrastructure, mechanical and electrical systems, and integrated project
control systems. We monitored the progress of Phase I to ensure that the activities
adhered to the work plan and complied with established engineering standards and
protocols, and to identify risk areas that were not addressed. We also evaluated
the Commonwealth of Massachusetts’s November 2006 Phase I report to ensure
that mitigation plans were developed to address identified risks, and reviewed the
implementation plan for subsequent activities in Phase II.

Due to the complexity of this audit and the limited time frame in which to
complete it, we engaged the U.S. Army Corps of Engineers (Corps) to provide
technical assistance to our engineers during Phase I of the review. The scope of
work for our review of Phase I was developed by the Corps under the direction of
our engineers. Using these guidelines, the Corps closely and independently
monitored the safety review by:

• assembling a technical team of experts and embedding this team with the
  consultant performing the safety review;
• participating in initial Wiss, Janney, Elstner Associates, Inc. (WJE) field
  activities;
• reviewing WJE work plans and providing comments;
• reviewing WJE interim submissions and providing comments;
• attending weekly meetings of the Governor’s Advisory Panel;
• attending site visits (along with members of the audit team); and
• regularly briefing OIG engineers on the status of Phase I.




Exhibit A. Scope and Methodology
                                                                               19


The Corps performed its technical reviews using criteria from the American
Association of State Highway and Transportation Officials, the FHWA, the
National Fire Protection Association, and the American Concrete Institute.
Additionally, the Corps used geologic conditions/seismic zoning criteria for the
review of the seismic analysis.

We closely monitored the progress of Phase I and will continue to monitor future
phases. At the outset, we conducted planning sessions with senior Corps
executives to discuss the scope of the work to be performed and established rules
of engagement with WJE. The Corps provided updated information to our
engineers on a regular basis. After reviewing information that the Corps provided,
our engineers shared their concerns with the Commonwealth’s safety review team,
as necessary, to affect the direction of the safety review. Our engineers also
performed some site visits along with the Corps during Phase I.

This performance audit was performed from July 2006 through August 2007 in
accordance with Generally Accepted Government Auditing Standards as
prescribed by the Comptroller General of the United States.




Exhibit A. Scope and Methodology
                                                                     20




EXHIBIT B. MAP OF THE CENTRAL ARTERY/TUNNEL PROJECT




Source: Massachusetts Turnpike Authority, http://www.masspike.com/




Exhibit B. Map of the Central Artery/Tunnel Project
                                                                            21




EXHIBIT C. THE COMMONWEALTH OF MASSACHUSETTS’S
CLASSIFICATION OF SAFETY CONCERNS
Safety risks identified by the Commonwealth’s Stem to Stern Safety Review
during Phase I were classified using the following categories of risk:

• IC: Immediate or dangerous conditions that pose the greatest safety risk—such
  conditions were immediately reported to the Massachusetts Turnpike Authority
  for remediation

• R1: Conditions that require remediation as soon as possible

• R2: Conditions requiring remediation that should be coordinated with near-
  term maintenance and capital improvement programs

• MR: Conditions that should be monitored and considered for remediation if the
  condition worsens

• PII: Phase II follow-up work recommended to confirm or resolve identified
  concerns

• NA: No follow-up necessary as part of the Stem to Stern Safety Review




Exhibit C. The Commonwealth of Massachusetts’s Classification of
Safety Concerns
                                                                                        22


EXHIBIT D. PICTURES OF THE ZAKIM BRIDGE AND ITS
ANCHOR PLATES




A. Zakim Bridge




B. Close-up of cables                  C. Close-up of anchor plate securing cable to a steel
                                       girder. According to the Phase I report, six of the
                                       anchor plates are deformed.


Source: U.S. Army Corps of Engineers


Exhibit D. Pictures of the Zakim Bridge and Its Anchor Plates
                                                                      23




EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Kurt Hyde                             Former Assistant Inspector
                                        General for Surface and Maritime
                                        Programs

  Tom Yatsco                            Program Director

  Eric Mader                            Project Manager

  Donald Lango                          Senior Auditor

  Charles Wilson                        Analyst

  Rodolfo Pérez                         Engineer Advisor

  Anne-Marie Joseph                     Engineer

  Aron Wedekind                         Engineer

  Harriet Lambert                       Writer-Editor




Exhibit E. Major Contributors to This Report
                                                                                       24




      APPENDIX. MANAGEMENT COMMENTS



                                               Memorandum


Subject: INFORMATION: Federal Highway Administration                   Date: August 3, 2007
         Response to Office of Inspector General (OIG) Draft
         Report, “Initial Assessment of the Central Artery/Tunnel
         Project Stem to Stern Safety Review”


From:    James D. Ray                                                  In Reply
         Acting Deputy Administrator and                               Refer To: HCC-3
           Chief Counsel


To:     Calvin L. Scovel III
        Inspector General (JA-40)


         Thank you for the opportunity to review and comment on the OIG Draft
         Report, “Initial Assessment of the Central Artery/Tunnel Project Stem to Stern
         Safety Review.” As noted in the Report, the scope of the Stem to Stern Safety
         Review (STS) initiated by the Commonwealth is not limited to the Central
         Artery/Tunnel (CA/T) Project; it covers the entire Boston Metropolitan
         Highway System, which includes wholly State funded facilities. In light of the
         Federal investment in the CA/T Project and the need to restore public
         confidence in the safety of the entire system, FHWA, from the inception of the
         STS, has recognized its responsibility to ensure that the former and current
         Administration in the Commonwealth proceed with the appropriate dispatch to
         correct all safety concerns identified as part of the review. We will continue to
         provide diligent oversight of the progress made by the Commonwealth in
         completing the STS and implementing the recommendations. On the whole,
         we believe the findings in the report are valid. We also believe the
         Commonwealth has taken steps recently to steadily move the STS forward.

      Appendix. Management Comments
                                                                                 25



  Our comments and planned            actions   on   the   specific   audit   report
  recommendations follow.

  Recommendation 1: “To ensure prompt action on the Central Artery safety
  reviews and protect the massive Federal investment in the project, we
  recommend that FHWA:

  1. Designate a lead official to ensure that the Commonwealth:

  a. Completes the analyses of all safety risks—especially those posing
     immediate safety risks—in a timely, independent, and thorough manner,
     since many key safety studies were limited or deferred; and carries out
     prompt remediation for any deficiencies identified.
  b. Produces a clear and comprehensive methodology for Phase II, including a
     realistic schedule with a critical path for sequencing activities and
     reasonable cost estimates. The methodology should reflect the analyses
     and remedial work to be performed on outstanding findings and
     recommendations of the Commonwealth’s Phase I report. The methodology
     should also include plans to independently verify that remedial work is
     completed.
  c. Expeditiously pursues cost recovery to the extent possible for those
     conditions that result from design errors or inadequate construction
     practices.
  d. Continues to routinely communicate latest developments to key
     stakeholders, including FHWA and OIG.”

  Response: We concur in the recommendation to designate an official in
  FHWA to ensure the State progresses in the above noted areas. In carrying out
  our oversight responsibilities, we will utilize the tools available to us to spur
  appropriate action by the State, recognizing and respecting our differing roles.
  In keeping with our response to Recommendation 2 below, we will apprise the
  Department of Transportation Oversight Committee of any issues of major
  concern. As Acting Deputy Administrator, I will perform the functions of the
  designated lead official and serve as the point of contact to coordinate the
  efforts of relevant units in FHWA involved in overseeing action by the State.

  Recommendation 2: “Report monthly to the Department of Transportation
  Oversight Committee on the Central Artery Project and the OIG regarding
  progress being made by the Commonwealth to complete the safety reviews and
  on any concerns the FHWA may have.”




Appendix. Management Comments
                                                                               26


  Response: We concur in the intent of the recommendation to report
  periodically to the Oversight Committee on progress made by the State. We
  have in the past reported to the Committee as needed on all of the activities
  FHWA is involved in related to the CA/T Project, and we have provided copies
  of our reports to the OIG. We would continue to provide the OIG copies of
  our report to the Committee. However, we do not believe it appropriate to
  characterize our actions as “reporting” to the OIG. It appears to suggest that
  the OIG is part of the FHWA’s management chain of command.

  We would defer to the Oversight Committee on the frequency of our reports
  rather than requiring monthly reports regardless of activity levels with respect
  to the Stem to Stern Review. Moreover, because the makeup of the Committee
  may change over time, FHWA will continue to report to either the Committee
  or its functional equivalent until such time as it is determined by the
  Committee to be no longer necessary.

  In closing, we would like to emphasize that the FHWA is committed to being
  good stewards of the Federal investment in the CA/T and the Federal interest
  in public safety.

  The efforts of the OIG auditors are greatly appreciated. If you have any
  questions or comments regarding this response, please contact Jo Anne
  Robinson at (202) 366-0740.




Appendix. Management Comments
